OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ETHIOPIA’S
EFFECTIVENESS IN
COMPLYING WITH THE
TIAHRT REQUIREMENTS
AUDIT REPORT NO. 4-663-07-007-P
June 22, 2007




PRETORIA, SOUTH AFRICA
Office of Inspector General


June 22, 2007

MEMORANDUM

TO:             USAID/Ethiopia Director, Glenn Anders

FROM:           Acting Regional Inspector General/Pretoria, Matthew Rathgeber

SUBJECT:        Final report on Audit of USAID/Ethiopia’s Effectiveness in Complying with the
                Tiahrt Requirements (Audit Report No. 4-663-07-007-P)


This memorandum transmits our final report on the subject audit. This report contains no
recommendations.

In finalizing this report, we evaluated the Mission’s comments on our draft report. These
comments are included in Appendix II of this report.

I want to express my sincere appreciation for the cooperation and courtesy extended to my
staff during the audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Finding ................................................................................................................... 4

Has USAID/Ethiopia effectively implemented controls and procedures to
ensure that USAID/Ethiopia and its implementing partners are complying
with the Tiahrt Amendment requirements? ....................................................................... 4

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 13

Appendix III – Tiahrt Amendment Provisions............................................................. 15

Appendix IV – Health Facilities Visited and Interviews Conducted ......................... 16
SUMMARY OF RESULTS
The Regional Inspector General/Pretoria conducted this audit to determine if
USAID/Ethiopia effectively implemented controls and procedures to ensure that
USAID/Ethiopia and its implementing partners are complying with the Tiahrt Amendment
requirements (See Appendix III for a listing of these requirements).

USAID/Ethiopia has effectively implemented controls and procedures to ensure that the
Mission and its partners complied with the requirements of the Tiahrt Amendment. (See
page 4.) For the items tested, we did not find any Tiahrt Amendment violations. The
design and implementation of USAID/Ethiopia’s controls regarding Tiahrt compliance
have helped to ensure that its lead implementing partner and sub-partner organizations
are complying with Tiahrt requirements. Because of the large percentage of unmet
family planning needs in Ethiopia—estimated at 33.8 percent—there was little incentive
to establish quotas for the implementing partner, service providers and promoters or
incentives for potential clients. (See pages 5 and 6.)

USAID/Ethiopia communicated the Tiahrt requirements to its family planning
implementing partner—Pathfinder International 1 . The requirements were communicated
by incorporating Tiahrt Amendment requirements into its cooperative agreement and
subagreements. The Mission also shares family planning materials and technical
assistance with Pathfinder International. (See pages 6 and 7.)

Moreover, the audit found that USAID/Ethiopia’s controls were adequate to minimize the
likelihood of Tiahrt violations. The Mission was confident—and we agreed—that these
controls addressed the control weaknesses in Guatemala that led to the Tiahrt violations
and, accordingly, did not have to respond to the issues that arose in Guatemala. (See
pages 7 and 8.)

Finally, given the Mission’s strong internal controls, we found no need for
USAID/Ethiopia to implement its own detailed procedures to investigate, remedy and
report on violations of the Tiahrt Amendment. The Mission’s policy is to follow the
procedures indicated in USAID’s “Guidance for Implementing the ‘Tiahrt’
Requirements for Voluntary Family Planning Projects” should any violations of the Tiahrt
Amendment occur. (See page 8.)




1
  Pathfinder International implements the family planning project through 30 indigenous implementing
partner organizations with sub-grants, institutional and capacity building support, technical assistance and
supplies in the following five regions: Addis Ababa; Amhara; Oromia; Southern Nations, Nationalities, and
People’s region; and Tigray.




                                                                                                          1
BACKGROUND
The Tiahrt Amendment to the Fiscal Year 1999 Appropriations Act (named after its
author, Representative Todd Tiahrt of Kansas) applies to projects that received USAID
funds for family planning service delivery activities and requires the following (See
Appendix III, which further expands on these requirements):

      1. Service providers and referral agents cannot implement or be subject to quotas
         relating to numbers of births, family planning acceptors, or acceptors of a
         particular family planning method.

      2. No incentives should be paid to individuals in exchange for becoming acceptors
         or to program personnel for achieving targets or quotas for number of births,
         acceptors, or acceptors of a particular family planning method.

      3. Rights or benefits cannot be withheld from persons who decide not to become
         acceptors.

      4. Acceptors get comprehensible information on health benefits and risks of the
         family planning method chosen, including conditions that might make the method
         chosen inadvisable and known adverse side effects.

      5. Provision of experimental family planning methods occurs in the context of a
         scientific study in which participants are advised of potential risks and benefits.

      6. Certain reports on violations must be sent to Congress.

In Ethiopia, the estimated percentage of unmet needs for family planning is 33.8
percent 2 . USAID/Ethiopia is working closely with the Ministry of Health and the lead
implementing partner, Pathfinder International, to expand access to and use of quality
reproductive and family planning services.
Some of the major areas of family planning program activities include:
      •   Expanding Reproductive Health/Family Planning (RH/FP) services, including
          method mix, to over 250 urban and rural districts through Pathfinder International
          with over 30 sub-grantee partner organizations.
      •   Deploying community-based reproductive health agents in the five largest regions
          (Addis Ababa; Amhara; Oromia; Southern Nations, Nationalities and People’s
          Region; and Tigray) of the country to strengthen household and community level
          access to RH/FP services.
      •   Linking family planning and HIV/AIDS services including the integration of family
          planning services into Voluntary Counseling and Testing (VCT) and Prevention of
          Mother to Child Transmission (PMTCT) sites.
      •   Expanding the number of youth peer educators providing RH services and
          HIV/AIDS prevention counseling.


2
    Ethiopia Demographic and Health Survey, 2005.




                                                                                          2
Currently, over 10,000 community-based reproductive health agents (CBRHAs) have
been trained and deployed to cover more than 10,000 communities with a potential
beneficiary population of 60 million. Over 100 health facilities have been upgraded and
essential RH/FP equipment and supplies have been provided so that these facilities can
provide quality family planning services. An additional 80 sites are scheduled to receive
minor renovations in the coming year. Since 2002, more than 2 million women in
Ethiopia have accepted family planning for the first time.

For fiscal year 2006, USAID/Ethiopia’s budgeted funding for family planning and
reproductive health was $19.773 million.



AUDIT OBJECTIVE
The Office of Inspector General is conducting an audit of USAID’s compliance with the
Tiahrt Amendment in several countries to respond to Congressional interest due to
violations reported in Guatemala 3 . As part of this effort, the Regional Inspector
General/Pretoria performed this audit to answer the following question:

•   Has USAID/Ethiopia effectively implemented controls and procedures to ensure that
    USAID/Ethiopia and its implementing partners are complying with the Tiahrt
    Amendment requirements?

In order to answer the audit objective, the auditors addressed the following four
detailed questions:

1. Has USAID/Ethiopia or its partners violated the Amendment?

2. Has USAID/Ethiopia communicated the Tiahrt Amendment’s requirements to its
   family planning partners?

3. Has USAID/Ethiopia, in response to the issues that arose in Guatemala,
   implemented controls and procedures that improve compliance?

4. Has USAID/Ethiopia implemented procedures to investigate, remedy and report
   violations?

Appendix I contains a discussion of the audit's scope and methodology.




3
 “Audit of Compliance With the Tiahrt Amendment Under USAID/Guatemala’s Cooperative
Agreements With the Family Welfare Association of Guatemala (APROFAM),” Audit Report No.
1-520-06-007-P, dated August 21, 2006.



                                                                                       3
AUDIT FINDING
Has USAID/Ethiopia effectively implemented controls and
procedures to ensure that USAID/Ethiopia and its implementing
partners are complying with the Tiahrt Amendment
requirements?
USAID/Ethiopia effectively implemented controls and procedures to ensure that the
Mission and its implementing partners are complying with the Tiahrt Amendment. The
Mission’s compliance with the Tiahrt Amendment is due, in part, to the USAID/Ethiopia’s
experienced lead implementing partner, Pathfinder International, and the Mission’s
Health, AIDS, Population and Nutrition (HAPN) Team.

For the items tested, we found no instances of violations of Tiahrt Amendment
requirements. USAID/Ethiopia and its partners were not subject to quotas, nor did they
offer any incentives to individuals or program personnel for achieving targets or quotas.
In addition, no rights or benefits were denied to clients to induce them to accept family
planning methods, and comprehensible information on the benefits and risks of the
chosen family planning method was provided.

Further, the controls and procedures we reviewed were designed and implemented to
provide USAID/Ethiopia with assurance that its implementing partners are complying
with Tiahrt requirements. The community-based reproductive health agents 4 (CBRHA)
receive continuous training through Pathfinder International’s integrated family planning
refresher course provided bi-annually in some regions and annually in other regions. In
addition, the subrecipients sign a certification that they will fully comply and abide by the
Voluntary Population Planning Standard Provision, which includes Tiahrt Amendment
requirements, either yearly or during renewal of agreement with the lead implementing
partner.

To ensure full compliance with the Tiahrt Amendment, the Mission’s HAPN team,
reviewed the controls in place and determined that the Mission’s existing controls were
sufficient. Therefore, the team did not institute changes to its controls based on the
knowledge of the problem that arose in Guatemala.

The Mission plans to follow USAID’s guidance in reporting any incidents of Tiahrt
Amendment violations, should they occur.




4
  Community-based reproductive health agents (CBRHAs) are volunteer community family planning
promoters.




                                                                                           4
    Photo of community-based reproductive health
    agents at Adwa Health Center, Adwa, Ethiopia     Photo of community-based reproductive health
    holding a placard used as a teaching aid, with   agents at Wolaita Sodo Clinic, Wolaita Sodo,
    illustrations and actual samples of family       Ethiopia, explaining how to use the cycle beads
    planning methods.      (Taken by RIG/Pretoria    as a family planning method. (Taken by
    auditor February 2007)                           RIG/Pretoria auditor January 2007)



1. Has USAID/Ethiopia or its partners violated the Tiahrt
Amendment?
For the items tested, we found no evidence that USAID/Ethiopia and its implementing
partner and subpartners violated the Tiahrt Amendment requirements. Specifically, for
the items tested:

•        No prohibited numerical targets or quotas were set related to the family planning
         program.
•        No prohibited incentive payments or other financial rewards were provided to an
         individual for becoming a family planning acceptor or to program personnel for
         achieving a numerical quota or target.
•        No denial of rights or benefits occurred as a consequence of an individual’s
         decision not to accept family planning services.
•        Clients interviewed have stated that they have received comprehensible
         information on health benefits and risks of chosen method.
•        Experimental contraceptive methods were not provided to any of the family
         planning clients interviewed.
•        Although the Mission has not come across any Tiahrt violation, it is cognizant of
         the reporting procedures for violations and has informed its partner of the
         procedures.

The service providers are mostly government employees who are not paid under a
performance based pay structure. They receive fixed salaries regardless of the number
of patients they provide services to, whether for family planning or other health/medical
issues. In addition the CBRHAs are volunteer family planning promoters. They do not
receive salary for their services. They receive two weeks of training, a bag, a uniform,
shoes and an umbrella to use when promoting family planning in their community. They
also receive a transportation allowance. Depending on the region, the transportation
allowance ranges from $5 to $8 per month. CBRHAs often cited personal satisfaction


                                                                                                  5
and community respect as their reasons for being volunteers. They highly value the
knowledge received from CBRHA training.

There are huge unmet family planning needs in Ethiopia—estimated at 33.8 percent.
According to the family planning service providers, they have to turn away potential
clients in some cases due to short supply of some contraceptives. As such, there is a
reduced likelihood that incentives would be provided to potential clients for family
planning services. None of the family planning clients interviewed had received any gifts
or rewards in return for using a particular method of contraception.

The service providers and CBRHAs interviewed place a strong emphasis on providing a
comprehensible explanation of the health benefits, risks and side effects of each family
planning method to the clients—both literate and illiterate.

USAID/Ethiopia has established controls to ensure Tiahrt Amendment compliance at
various levels of its family planning program.     For the items tested in this audit, we
found no Tiahrt Amendment violations. However, should an incident occur, the Mission
is cognizant of USAID reporting policies and procedures. The implementing partner is a
U.S.-based organization that is also aware of the Tiahrt Amendment requirements.




                                                           Instruction booklet used by community-based
 Photo of couple at Aje Health Center, Siraro,             reproductive health agents to present family
 Ethiopia.    The community-based reproductive             planning methods. The question translated in
 health agent (right) is holding a family planning         English means, “Do you know the family
 instruction booklet. His wife (left) is also his family   planning method that suits you best?” The
 planning client. (Photo taken by RIG/Pretoria             illustrations from left to right are pills, Depo-
 auditor January 2007)                                     Provera, Norplant, intrauterine device, cycle
                                                           beads and condoms.




2. Has USAID/Ethiopia communicated the Tiahrt Amendment’s
requirements to its family planning partners?
USAID/Ethiopia has communicated the Tiahrt requirements to its family planning
partner. One of the principal mechanisms USAID/Ethiopia used for communicating
Tiahrt requirements to its implementing partner, Pathfinder International, was by
incorporating the Tiahrt Amendment requirements into its cooperative agreement.
Pathfinder International also included the requirement to comply with the Tiahrt
Amendment in its subawards with other organizations.


                                                                                                               6
The Mission has been in touch with USAID’s Bureau for Global Health and has received
extensive materials and technical assistance on U.S. family planning statutory and policy
requirements—including the Tiahrt requirements—that the Mission shares with
Pathfinder International. In turn, Pathfinder International provides training and guidance
to its subpartners regarding Tiahrt compliance. This communication of the requirements
to the subpartners is reflected in the CBRHA training curriculum which includes the
principles of the Tiahrt Amendment requirements. This has created a strong compliance
environment within the Mission, Pathfinder International, service providers and CBRHAs.

A number of CBRHAs confirmed that in the basic training and annual refresher course,
emphasis on the client’s right to choose and confidentiality of information was included.
For example, if the client uses a family planning method and experiences adverse side
effects, the client is free to use another family planning method with no result in denial of
rights or benefits.

3. Has USAID/Ethiopia, in response to the issues that arose in
Guatemala, implemented controls and procedures that improve
compliance?
USAID/Ethiopia did not implement controls and procedures to improve compliance with
the Tiahrt Amendment. The Mission concluded that its controls already in place were
sufficient to address the control issues in Guatemala that led to the Tiahrt violations.
Accordingly, the Mission did not have to take additional action to respond to the issues
that arose in Guatemala. Some of these controls were:

• The Mission has instructed the Cognizant Technical Officer (CTO) to report on
  aspects of Tiahrt Amendment requirements during monitoring and site visits. For
  example, the CTO monitoring report includes observations of how the CBRHAs
  counsel clients and potential clients of all the family planning methods using the family
  planning instruction booklet presented on page 6. Also, the CTO verifies that the
  clinics and health centers post a family planning chart in Amharic with pictorial display
  of all available methods at the veranda and inside the examination room—part of the
  “Technical Guidance on the ‘Comprehensible Information’ Paragraph of the Tiahrt
  Clause” (April 1999)—which states that “USAID/W strongly recommends a specific
  tangible (i.e. physical) intervention (e.g. wall charts, flip charts, package inserts) be
  implemented in all service delivery points of contact, to promote consistent provision
  of information.”

• Pathfinder, in the standard provisions of its subawards, specifies the need to comply
  with the Tiahrt requirements. In turn, the audit contracts for auditing the sub-partners
  have a clause which requires the audit firms to pay particular attention to the standard
  provisions of awards in their financial statement audits. In addition, Pathfinder
  International, on a yearly basis or upon renewal of agreements with subrecipients,
  requires subrecipients to sign a certification of compliance with USAID’s Voluntary
  Family Planning programs.

• The Mission and the implementing partner were very much aware of the Tiahrt
  requirements and the knowledge of the issues that arose in Guatemala has further
  strengthened their familiarity.


                                                                                           7
• The training curriculum for community-based reproductive health agents and
  community health extension workers used by the Government of Ethiopia was
  developed in collaboration between the Mission’s Health, AIDS, Population and
  Nutrition team and the Government of Ethiopia’s Ministry of Health. The training
  manual includes required practices in family planning services that are the core of the
  Tiahrt requirements.


4. Has USAID/Ethiopia implemented procedures to investigate,
remedy and report on violations?

USAID/Ethiopia had not developed procedures to investigate, remedy and report on
violations. The Mission’s policy is to follow the procedures indicated in USAID’s
“Guidance for Implementing the ‘Tiahrt’ Requirements for Voluntary Family Planning
Projects” should any violations of the Tiahrt Amendment occur. As of the time of the
audit, there had been no reported incidents of Tiahrt violations in Ethiopia.
Therefore, we found no need for USAID/Ethiopia to implement its own detailed
procedures to investigate, remedy and report on violations of the Tiahrt Amendment.




                                                                                       8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Ethiopia provided written comments on our draft audit report which included
clarification of several issues discussed in the audit report. The Mission also attached
comments from the Bureau for Global Health’s Office of General Counsel. RIG/Pretoria
considered these comments in finalizing this report. The Mission’s comments (without
attachments) are included as Appendix II to this report.




                                                                                      9
                                                                             APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted an audit to assess USAID’s compliance with
the family planning related requirements of the Tiahrt Amendment and any new
guidelines promulgated by USAID/Washington. To support this effort, the Regional
Inspector General/Pretoria performed this audit to determine USAID/Ethiopia’s
effectiveness in complying with the requirements of the Tiahrt Amendment. The
Regional Inspector General/Pretoria conducted this audit in accordance with generally
accepted government auditing standards.

In performing the audit, we identified and assessed the Mission and lead implementing
partner’s controls related to ensuring compliance with the provisions of the Tiahrt
Amendment. The management controls identified included performance monitoring
plans, the Mission’s Annual Report, the Mission’s annual self-assessment of
management controls as required by Federal Managers Financial Integrity Act, field
visits conducted by the Cognizant Technical Officer, quarterly reports, and
communications between Pathfinder International (lead implementing partner) and
USAID/Ethiopia personnel. The lead implementing partner controls identified were
certification on Voluntary Population Planning signed by subrecipient’s authorized
representative and statutory audits of subrecipients with Statement of Work auditor
guidelines relating to family planning programs.

The audit was conducted at the offices of USAID/Ethiopia, the offices of the Mission’s
implementers, and health facilities throughout the country from January 22 – February
16, 2007. The audit covered the period from October 1, 2005 through September 30,
2006. The budgeted funding for family planning and reproductive health was $19.773
million for fiscal year 2006.

We judgmentally selected sites to visit to ensure a representative mix of partner sites at
urban and rural communities. We visited a representative sample of USAID/Ethiopia’s
family planning program. In total, we visited 26 health facilities in Addis Ababa and in
four of Ethiopia’s largely populated regions as shown in the table below.

Table 1: Sampled Sites

             Region                    No. of Health Facilities        Sampled sites
Addis Ababa                                    N/A                         2
Amhara                                         601                         6
Oromia                                         362                         6
Southern Nations, Nationalities and
People’s Region                                360                          3
Tigray                                         109                          9
Total                                          N/A                          26

We based our conclusion on the following: (1) review of relevant documents’ (2)
interviews with 34 medical staff providing family planning services, (3) interviews with



                                                                                       10
89 community-based reproductive health agents (CBRHAs) and (4) 130 interviews with
current family planning clients.

Table No. 2 in Appendix IV, page 16 lists the project sites visited and includes
information on the region, implementing partner and subrecipients, and the number of
interviews conducted.


Methodology
In order to answer the audit objective, the auditors addressed the following four
detailed questions:

1. Has USAID or its partners violated the Amendment?

2. Has USAID communicated the Amendment’s requirements to its family planning
   partners?

3. Has USAID, in response to the problems that arose in Guatemala, implemented
   controls and procedures to improve compliance?

4. Has USAID implemented procedures to investigate, remedy and report violations?

The answers to the questions were deemed positive, if the auditors found:

   •   No violations to the amendment.
   •   Amendment requirements have been communicated to the mission and partners.
   •   Controls and procedures have been implemented to address weaknesses found
       in Guatemala.
   •   Reporting procedures have been implemented.

To answer the audit objective, we visited 26 health care facilities, interviewed 34 medical
staff providing family planning services, 89 family planning promoters and interviewed
130 family planning clients. We conducted interviews with USAID/Ethiopia and
implementing partner officials and personnel. We also reviewed documentation
produced by USAID/Ethiopia, its partner and subrecipients. The audit team developed
separate interview questionnaires for service providers, promoters and clients to ensure
consistency in the subjects covered during the field visits. The questionnaires were
designed to determine if the requirements of the Tiahrt Amendment were violated
including if decisions made by clients were voluntary.                We also verified if
USAID/Ethiopia’s partner, along with the subrecipients, their service providers and family
planning promoters had received training and guidance on USAID family planning
provisions that included the Tiahrt Amendment requirements.

We interviewed a number of current family planning patients that were present at the
health facilities and clients who came to meet with the audit team on their own initiative.
In some health facilities, the clients came in groups because they wanted to express
appreciation for the family planning program.

In order to test aspects of the Mission’s monitoring system we interviewed Mission

                                                                                        11
Cognizant Technical Officer and other responsible officials and reviewed documentation
produced by USAID/Ethiopia. The documentation we reviewed included site monitoring
reports, correspondence, quarterly, and annual reports maintained by the Cognizant
Technical Officer and Health, AIDS, Population and Nutrition team.

With regard to USAID/Ethiopia’s partner and subrecipients, we reviewed the partner’s
and sampled 10 subrecipients’ agreements, contracts, documents, and grantee progress
and financial reports. We conducted a cursory review of financial audits conducted by
local Ethiopian audit firms for fiscal year 2005 to verify that there was no compliance
finding related to USAID voluntary family planning policy that covers Tiahrt Amendment
requirements.

In assessing compliance with Tiahrt provisions, we considered that a single violation
would be considered to be significant and reportable.




                                                                                    12
                                                                                   APPENDIX II




MANAGEMENT COMMENTS


Date:            May 31, 2007

To:              Mr. Nate Lokos, Regional Inspector General

From:            Mr. Glenn Anders, USAID/Ethiopia Director

Subject:         Mission Comments on Draft Audit Report of USAID/Ethiopia’s
                 Effectiveness in Complying With The Tiahrt Requirements


As requested, the Mission has reviewed the subject draft audit report on
USAID/Ethiopia’s effectiveness in complying with the Tiahrt requirements. In addition,
the Mission has received and reviewed the attached comments from GH/GC in
Washington regarding the draft audit report.

Per review of the draft audit report, USAID/Ethiopia is in agreement with the attached
comments provided by GH/GC and requests particular consideration of the following
suggested modifications to the draft audit report.

•     On page 1 (second paragraph, last sentence) and page 6 (second paragraph,
      second sentence), the report states that there is little incentive for a system of quotas
      or incentives in Ethiopia due to the large unmet need here. Please delete these
      references as there is no evidence-based link between unmet need and quotas or
      incentives. A country could have relatively high unmet need but still establish
      prohibited quotas or incentives (indeed several Tiahrt violations have occurred in
      countries with relatively high unmet need).

•     In the footnote on page 4, the report notes with respect to CBRHAs that “Most of
      them are married and use family planning methods.” Please delete this sentence as
      the information is not relevant to the audit or audit findings.

•     On page 5 (last paragraph), we recommend that you amend the first sentence to
      read “Service providers are government employees and receive fixed salaries
      regardless of the number of patients they provide services to whether for family
      planning or other health/medical services.” Please delete language in the first
      sentence prior to “service providers” as there is no evidence-based link between
      service providers being government employees and Tiahrt compliance.

U.S. Agency for International
Development
Riverside Building
off Olympia /Haile G.Selassie   Tel. : 251-11-5510088            USA Address:
P. O. Box 1014                  Fax : 251-11-5510043             2030 Addis Ababa Place
                                Website: www.usaidethiopia.org   Washington, DC 20521-2030   13
                                                                              APPENDIX II



•   On page 5 (first bullet point), please edit as follows: No prohibited numerical targets
    or quotas were set related to the family planning program.

•   On page 10 (first paragraph), the document references “new policies and procedures
    promulgated by USAID/Washington.” Please specify the policies and procedures to
    which you are referring.

USAID/Ethiopia recognizes the importance of ensuring compliance with the Tiahrt
requirements, and is pleased that RIG/Pretoria found that the Mission has effectively
implemented controls and procedures to ensure that USAID/Ethiopia and its
implementing partners are complying with the Tiahrt Amendment.

USAID/Ethiopia would like to take this opportunity to thank the RIG/Pretoria auditors for the
feedback and training provided during the subject audit. Collaboration between the Mission
and RIG/Pretoria continues to contribute to USAID’s successful development program in
Ethiopia.




                                                                                         14
                                                                             APPENDIX III


                          TIAHRT AMENDMENT PROVISIONS


The Tiahrt Amendment to the Fiscal Year 1999 Appropriations Act (named after its
author, Representative Todd Tiahrt of Kansas) applies to projects that received USAID
funds for family planning service delivery activities and requires the following:

(1) Service providers or referral agents in the project shall not implement or be subject to
quotas, or other numerical targets, of total number of births, number of family planning
acceptors, or acceptors of a particular method of family planning (this provision shall not
be construed to include the use of quantitative estimates or indicators for budgeting and
planning purposes).

(2) The project shall not include payment of incentives, bribes, gratuities, or financial
reward to an individual in exchange for becoming a family planning acceptor, or program
personnel for achieving a numerical target or quota of total number of births, number of
family planning acceptors, or acceptors of a particular method of family planning.

(3) The project shall not deny any right or benefit, including the right of access to
participate in any program of general welfare or the right of access to health care, as a
consequence of any individual's decision not to accept family planning services.

(4) The project shall provide family planning acceptors comprehensible information on
the health benefits and risks of the method chosen, including those conditions that might
render the use of the method inadvisable and those adverse side effects known to be
consequent to the use of the method.

(5) The project shall ensure that experimental contraceptive drugs and devices and
medical procedures are provided only in the context of scientific study in which
participants are advised of potential risks and benefits.

Further, not less than 60 days after the date on which the Administrator of the United
States Agency for International Development determines that there has been a violation
of the requirements contained in paragraphs (1), (2), (3), or (5) of this proviso, or a
pattern of practice of violations of the requirements contained in paragraph (4) of this
proviso, the Administrator shall submit to the Committee on International Relations and
the Committee on Appropriations of the House of Representatives and the Committee
on Foreign Relations and the Committee on Appropriations of the Senate, a report
containing a description of such violation and the corrective action taken by the Agency.




                                                                                         15
                                                                                APPENDIX IV



                Table 2: Health Facilities Visited and Interviews Conducted

                                                                                            Service
Region                     Site                    Subrecipient        Client    Promoter   Provider
                                            Integrated Services for
                                            Aids Prevention and
   Addis        Shiro Meda Health Center    Support Organization         1                       2
   Ababa                                    Integrated Services for
                                            Aids Prevention and
                Kebele 01/02                Support Organization         4          2
                Kombolcha Health Center     Pathfinder International     3          2            1
                Debre Berhan Hospital       Pathfinder International     5          3            2
                Cheffa Robit Health
                Center                      Pathfinder International     2          2            2
  Amhara
                Boru Meda Hospital          Pathfinder International     6          1            2
                Motta Health Center         Ethiopian Aid                2          2            1
                Bichena Ethiopian Aid
                Office                      Ethiopian Aid                3          3
                                            African Humanitarian
                Arsi Negele Health Center   Action                                  2            3
                                            African Humanitarian
                Shashemane Hospital         Action                      14          3
                                            Birhan Integrated
                                            Community Development
                Inchini Health Center       Organization                 6          4            2
  Oromia
                                            Birhan Integrated
                                            Community Development
                Holeta Health Center        Organization                 2          5            2
                Ethiopian Kale Heywet       Ethiopian Kale Heywet
                Church Office               Church                       5          7            1
                Wolde Kelina                Amhara Development
                Kebele/CBRHA's Meeting      Association                  5          7            1
 Southern                                   Amhara Development
 Nations,       Aje Health Center           Association                  4          2            3
Nationalities   Wolaita Sodo Health         African Humanitarian
    and         Center                      Action                       5          5            3
 People's                                   Ethiopia Evangelical
  Region        Guba Health Center          Church Mekene Yesus         10         6
                Mulu Health Clinic          Relief Society of Tigray    9          2             1
                Fatsi Health Center         Relief Society of Tigray    4          4             1
                Wukro Health Center         Relief Society of Tigray               5             1
                Birshewa Health Clinic      Relief Society of Tigray     4         2             1
   Tigray       Adwa Health Center          Relief Society of Tigray     8         5             1
                Milchew Health Center       Relief Society of Tigray     8         4             2
                Adigrat Health Center       Relief Society of Tigray     5         6             2
                Adishu Health Clinic        Relief Society of Tigray     4         1
                Mereb Lehe Health Center    Relief Society of Tigray    11         4
   Total                    26                                          130        89            34



                                                                                            16
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig


                                            15
